                                                 OFFICE OF INSPECTOR GENERAL
                                                                         MEMORANDUM




DATE:          December 2, 2005

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on the FY 2004 Audit of Network Infrastructure Controls

The Office of Inspector General (OIG) has completed an audit of network infrastructure controls.
A copy of our Audit Report, entitled “FY 2004 Audit of Network Infrastructure Controls” (Audit
Report No. 04-AUD-12-23) is attached. The objective of this audit was to determine the extent
and adequacy of security controls over the network infrastructure operated and maintained by the
Federal Communications Commission (FCC). The scope of this audit included the internal
network infrastructure owned, managed, and/or operated by the FCC.

To accomplish the objectives of this audit, we contracted with the public accounting firm of
KPMG, LLP (KPMG). Under our supervision, the KPMG audit team interviewed staff,
reviewed documentation, and performed other tests deemed necessary. Finally, KPMG
evaluated the status of technical controls by executing automated tools and manual tests on the
devices comprising the FCC’s network infrastructure. These tests included a vulnerability
assessment to test the security of the FCC’s network assets. KPMG also evaluated the network
infrastructure controls at the FCC facility at Gettysburg, PA.

During this audit we identified a number of positive security controls in the FCC’s network
infrastructure, including:

   A comprehensive set of configuration standards have been developed and implemented.

   Network infrastructure components are physically secured.

While these positive controls were noted, the audit identified twelve (12) findings, two (2) high
risk, eight (8) medium risk and two (2) low risk. Appendix A, Summary of Findings,
summarizes these conditions. Appendix B, Detailed Findings and Observations, contains the
detailed results of our audit. Appendix C, Acronyms, lists definitions of terms used in the report.

On September 26, 2005, we provided a draft to the Office of Managing Director (OMD) for
